OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/HAITI’S
NEW SETTLEMENT
CONSTRUCTION ACTIVITIES
AUDIT REPORT NO. 1-521-14-007-P
APRIL 14, 2014




SAN SALVADOR, EL SALVADOR
Office of Inspector General


April 14, 2014

MEMORANDUM

TO:                USAID/Haiti Mission Director, John Groarke

FROM:              Regional Inspector General/San Salvador, Jon Chasson

SUBJECT:           Audit of USAID/Haiti’s New Settlement Construction Activities
                   (Report No. 1-521-14-007- P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II. The report contains eight recommendations to help improve USAID/Haiti’s
implementation of its new settlement construction activities.

The mission agreed with six of the eight recommendations, disagreeing with Recommendation 4
and not stating its position on Recommendation 5; made management decisions on all the
recommendations; and took final action on Recommendation 8. We acknowledge the mission’s
management decisions on all the recommendations and final action on Recommendation 8. We
do not agree with the mission’s management decisions on Recommendations 4 and 5.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action on the remaining
seven recommendations.

Thank you and your staff for the cooperation and courtesies extended to us during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov/
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................5

     Construction Was Significantly Behind Schedule ..................................................................5

     Quality Control Documentation Was Insufficient ....................................................................6

     Mission Did Not Enforce Mitigation of Environmental Concerns ............................................9

     Mission Did Not Evaluate Contractors’ Performance ...........................................................10

     Mission Did Not Approve Contractors’ Branding Plans ........................................................11

Evaluation of Management Comments..................................................................................13

Appendix I—Scope and Methodology ...................................................................................15

Appendix II—Management Comments ..................................................................................16

Appendix III—Status of New Settlement Awards as of July 2013 ........................................ 21




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
COR             contracting officer’s representative
CPARS           Contractor Performance Assessment Reporting System
DLA 1.5         Declared Land Area 1.5
EMPR            environmental mitigation plan and report
FAR             Federal Acquisition Regulation
RIG             Regional Inspector General
SUMMARY OF RESULTS
Haiti has a vast need for permanent shelter. Haiti’s housing sector sustained roughly 40 percent
of the damage caused by the January 2010 earthquake, according to the government’s initial
needs assessment. 1 The quake destroyed about 105,000 homes and severely damaged more
than 208,000.

To address the need, in August 2011 USAID/Haiti began ambitious activities to (1) upgrade
neighborhoods in Port-au-Prince, (2) build permanent housing in new settlements outside the
capital, and (3) improve urban management through policy assistance to Haitian institutions.

This audit focused on the second activity—the building of new settlements in the Northern and
St. Marc development corridors (shown below). The new settlements, circled in red, are located
near the towns of Caracol (settlement name is Caracol-EKAM) and Cabaret (settlement name is
Declared Land Area 1.5 or DLA 1.5).

                           U.S. Government Development Corridors in Haiti




    Source: USAID/Haiti.

According to USAID/Haiti planning documents approved in August 2011, the new settlement
construction activities would build up to 4,000 houses, provide 11,000 home sites, and equip the
sites with basic services and infrastructure; other partners and donors would then fund the
construction of houses on these sites. The mission expected these activities to cost $55 million,
with completion in December 2012.
1
    Government of Haiti, Post-Disaster Needs Assessment, March 2010.


                                                                                               1
By April 2012, USAID/Haiti had awarded six contracts and one cooperative agreement, with a
total estimated cost of $50.8 million; As of July 5, 2013, USAID/Haiti had obligated $50 million
and disbursed $42 million to support these activities. The seven awards provided for the
following services:

                                          Audited Activities

                                                                         Short-Term
           Service                             Location                                    Overall Goal
                                                                            Goal
                                 • Caracol-EKAM Settlement (near         750 units
Construction management                                                                  Up to 4,000
                                   Cap Haitien)
engineering and design                                                                   houses
                                 • DLA 1.5 (near Cabaret)                156 units
                                 • Six settlements in the Cap Haitien                    11,000 home
Engineering and design
                                   Development Corridor                  6,220 home      sites with basic
(plans and surveying; not site
                                                                         sites           services and
preparation)                     • Seven settlements near Cabaret                        infrastructure

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether USAID/Haiti was achieving the main goals of its new settlement construction
activities: designing and building houses in Haiti.

Construction was significantly behind schedule (page 5). For that reason, the mission did not
achieve its goals for constructing houses and developing home sites within budget and on
schedule. As of completion of audit fieldwork in August 2013, the mission had substantially
completed construction of only 816 of the planned 4,000 houses—21 percent of the goal. The
mission completed engineering and design services for approximately 2,300 home sites and
was evaluating proposals for site development work, but had not provided basic services and
infrastructure to any of the planned 11,000 home sites. Housing units shown below were nearly
completed.




         Housing units at DLA 1.5 near Cabaret (left) and Caracol-EKAM (right) near completion.
                           (Photos by RIG/San Salvador June 27 and 30, 2013)

To meet its goals for houses and home sites, the mission increased new settlement funding
from $55 million to $90 million, and pushed back the expected completion date to October 2014.
However, as of July 2013, the mission had approved construction contracts for only 906 houses
and issued no contracts for providing basic services and infrastructure to home sites; current


                                                                                                            2
contracts provide only engineering services (planning, surveying, site preparation) at 6,220
home sites.

Further, auditors noted the following weaknesses:

•   Quality control plans were insufficient for documenting materials testing and tracking
    deficiencies (page 6). The mission did not check at the outset whether plans outlined
    needed processes and contained complete instructions.

•   The mission did not enforce mitigation of environmental concerns (page 9). One reason was
    that contractors provided conflicting assessments of how effective mitigation measures
    were.

•   The mission did not evaluate contractors’ performance as required (page 10). Performance
    should be evaluated annually and at the end of an award to inform future procurements and
    to induce excellent performance.

•   The mission did not approve contractors’ branding plans (page 11). The signs at one
    housing site did not appropriately recognize USAID’s contribution.

To help strengthen oversight of settlement construction activities, RIG/San Salvador
recommends that USAID/Haiti:

1. Determine whether the current targets are realistic or need to be adjusted, and document
   revised estimates of completion dates for the remaining houses and sites (page 6).

2. Require contractors to include in their quality control plans sufficient detail to make sure that
   construction projects meet the quality standards set forth in the contracts (page 8).

3. Require contractors to document all test results and make them readily available (page 8).

4. Require contractors to document and resolve all deficiencies identified and to use punch
   lists before asking USAID to accept completed houses (page 9).

5. Correct the problems noted with finishing the completed houses (page 9).

6. Address the inconsistencies in environmental reporting between its contractors, and
   implement a plan for more vigorous enforcement of environmental mitigation at the
   construction sites (page 10).

7. Complete the required contractor performance evaluations for all new settlement
   construction contracts in accordance with the Federal Acquisition Regulation and USAID’s
   Acquisition Regulation (page 11).

8. Document its actions regarding branding plans in accordance with USAID’s Automated
   Directives System (ADS), and obtain appropriate waivers if necessary (page 12).

Detailed findings appear in the following section. The scope and methodology are described in
Appendix I. Management comments are included in their entirety in Appendix II, and our
evaluation of management comments is on page 13.



                                                                                                  3
AUDIT FINDINGS
Construction Was Significantly
Behind Schedule
According to a USAID/Haiti plan approved in August 2011, USAID expected to build up to 4,000
houses and develop 11,000 home sites with basic services by December 2012, with total
funding of $55 million. Under the six contracts and one cooperative agreement (totaling
$50.8 million) issued by April 2012, the mission expected to build 906 houses. The contracts
also provided for engineering services—such as site location, planning, and surveying—for
13 planned settlements with an estimated 6,220 home sites in preparation for houses to be
constructed with funding from other donor sources.

In August 2012, mission officials increased funding for the new settlement activities from
$55 million to $90 million and extended the completion date to October 2014. The mission
provided the additional funding to address increased construction costs, design changes to
increase house size, and sanitation upgrades.

As of August 2013, the mission had substantially completed construction of 816 of the 906
houses and provided engineering services for approximately 2,300 of the 6,220 sites. However,
the contracts did not include the site preparation or provision of basic services and infrastructure
to allow for the construction of additional houses through partnerships with other donors; the
mission was still evaluating proposals for site preparation. As a result, the activities were
significantly behind schedule. The following factors led to the construction delays: (1) land
tenure determinations, (2) design changes, (3) work interruptions, (4) an emphasis on using
local labor and products, and (5) a shortage of willing partners. These issues are described in
more detail below.

•   Land tenure determinations. USAID/Haiti planned to build on both government and private
    land but had difficulty determining land ownership. The mission eventually decided to build
    only on government land but still encountered delays verifying land ownership, as the
    process allowed people 2 months to come forward with claims for the land.

•   Design changes. The design envisioned in the early stages was a “core” house, or modified
    version of temporary shelters. The design featured one room, a small kitchen, and a toilet.
    However, at the request of the Government of Haiti, USAID/Haiti changed the design for
    houses in Caracol-EKAM, replacing double-vaulted pit latrines with full-flush toilets, adding
    larger lots, and including one finished bedroom and an open concrete slab for a second
    bedroom to be built by the owner. USAID/Haiti also changed the design of DLA 1.5 to add
    an open slab for a second bedroom. The changes required revision of the plans and
    engineering designs.

•   Work interruptions. Construction at the Caracol-EKAM site was interrupted on several
    occasions by inclement weather, labor disputes, and local unrest. The construction site was
    shut down many times, for a total of 18 days between October 2012 and June 2013,
    because of labor disputes and protests. Site security became a significant problem. Unrest
    and protests occurred for a variety of reasons, such as the perception that the number of
    local workers employed at the site was too low and rumors that the houses would be given



                                                                                                  4
    to impoverished families from Port-au-Prince instead of to local families. One of the
    subcontractors did not always pay its employees promptly, resulting in additional protests.

•   Emphasis on using local labor and products. The construction contractors tried to use local
    labor whenever possible. These efforts provided a needed boost to the local economies and
    developed skills locally but required additional worker training and oversight, which slowed
    the pace of construction. At the Caracol-EKAM site, the house design featured locally made
    wooden windows; they required additional time and effort for Haitian producers to
    manufacture.

•   Shortage of willing partners. USAID/Haiti planned to develop 11,000 sites and services and
    partner with nongovernmental organizations to fund the construction of houses on these
    sites, but the mission had difficulties finding partners for the construction projects. The
    organizations were reluctant to deal with the land tenure and construction challenges in
    Haiti. The mission has entered into agreements or memorandums of understanding with
    three partners that will contribute to the construction of more than 4,000 additional houses
    on sites developed by USAID; however, as of August 2013, construction had not begun on
    these sites.

These issues put the activities significantly behind schedule and the mission in a poor position
to achieve goals within budget and on schedule. The delays have hampered the delivery of the
intended benefits, and thousands of Haitians are still living in temporary shelters waiting for
permanent housing. Given these serious challenges, it is unlikely that USAID will be able to
meet its original goals even by the new target dates. The mission is revisiting its permanent
shelter strategy to consider alternative housing approaches with the remaining funds. To ensure
that the mission addresses these key considerations, we make the following recommendation.

    Recommendation 1. We recommend that USAID/Haiti determine whether the current
    targets are realistic or need to be adjusted and document revised estimates of
    completion dates for the remaining houses and sites.

Quality Control Documentation Was
Insufficient
According to ADS 202.3.6, a major task of contracting officer’s representatives (CORs) and
development teams is to monitor the quality and timelines of a contract’s key outputs. The
guidance states, “Delays in completing outputs or problems in output quality provide an early
warning that results may not be achieved as planned,” and that “early action in response to
problems is essential in managing for results.”

USAID/Haiti executed construction contracts with two companies, CEMEX-Haiti and THOR
Construction Inc., to provide sustainable, durable, structurally sound, safe, and environmentally
friendly houses to needy families. USAID/Haiti also required the contractors to develop quality
control plans for the construction. The CEMEX quality control plan was to lay out methods and
procedures for conforming all material and completed construction to contract requirements.
THOR’s quality control plan was to ensure that all work was done without any quality defects
and include an inspection and monitoring process that would improve efficiency, eliminate
waste, foster accountability, and provide a high-quality project.




                                                                                               5
However, the quality control plans were not adequate to ensure that contractors documented,
tracked, and corrected deficiencies.

Tests and quality control activities were not well documented. CEMEX’s quality control
plan requires it to prepare daily quality control reports whenever it engages in any construction
activity. The individual performing the test should document test results to ensure compliance
with the requirements of the design and construction specifications. This documentation will
consist of “records prepared by Quality Control personnel, testing laboratories, the design and
construction personnel and any subcontractors.” Although CEMEX's plan required
documentation, THOR’s quality control plan did not include requirements for documenting any
testing or quality control activities.

Test records were incomplete. The testing log kept by CEMEX inspectors at DLA 1.5 showed
they had done the slump test, which measures the workability of fresh concrete. 2 Yet the log
gave no details of the test results. THOR’s testing log consisted of a list on a legal pad with
some handwritten slump test results. THOR personnel could not explain whether the list was
complete or what happened to material that did not meet the requirements. It was also
impossible to match the slump tests with the appropriate concrete tests performed. Neither
CEMEX nor THOR could provide a complete list of slump tests and other tests performed at the
time of our site visits.

Deficiencies were not always tracked. CEMEX’s quality control plan required that deficiencies
be tracked in a log with columns for the project/task, item number, date, initiator, description,
responsible party, date of corrective action, reinspection results, and date of approval of
corrective action. CEMEX and PHS Group Inc., the construction management contractor for
DLA 1.5, identified concrete test results that required a follow-up test, but they had not
determined which houses needed to be retested or who would perform the follow-up tests.

CEMEX also required a completion inspection of the items on the punch list, a list of tasks to be
done or fixed promptly that is compiled during a walk-through when a project is substantially
complete) to verify that deficiencies were corrected. THOR’s plan also required a punch list and
verification process to ensure deficiencies were corrected. However, as of July 2013, CEMEX
had not developed a punch list for DLA 1.5, and the one THOR developed for Caracol-EKAM
was being revised. Both projects were scheduled to be completed by August 2013.

Thus, despite the required attention to quality, many houses had noticeable problems.
Inconsistencies in the placement of toilet tanks could eventually lead to damage; the second
varnish coat to prevent wood damage on the windows and doors at several houses was not
done (as shown in the following photo), and the doorknobs at many houses were weak and
easy to tamper with. Finally, the open slab of the house foundations (left open to provide room
for future expansion by the owner) at Caracol-EKAM had reinforcing bars thrusting up from the
ground, posing a safety hazard to the community (as shown in the lower photo on the next
page).




2
    The test involves inverting a mold filled with concrete over a flat surface. The slump is the difference
    between the height of the mold and the highest point of the concrete.


                                                                                                          6
                 Shutters on house at Caracol-EKAM lack a second coat of varnish to
                  prevent wood damage. (Photo by RIG/San Salvador, July 1, 2013)




               Reinforcing bars on open slab intended for future expansion pose a safety
                  hazard in Caracol-EKAM. (Photo by RIG/San Salvador, July 1, 2013)

These problems occurred because mission personnel did not review the contractor’s quality
control procedures to ensure that all necessary steps were adequately documented. Inadequate
quality control procedures can lead to the use of substandard material in USAID-funded
construction projects, affecting structural integrity. To address this concern, we make the
following recommendations.

   Recommendation 2. We recommend that USAID/Haiti require contractors to include
   detailed instructions in their quality control plans to make sure that construction projects
   meet the quality standards set forth in the contracts.

   Recommendation 3. We recommend that USAID/Haiti require its contractors to
   document all test results and make them available on request.

   Recommendation 4. We recommend that USAID/Haiti require its contractors to
   document and resolve identified deficiencies, and use punch lists before asking USAID
   to accept completed houses.




                                                                                                  7
   Recommendation 5. We recommend that USAID/Haiti correct the problems noted with
   finishing the completed houses.

Mission Did Not Enforce Mitigation
of Environmental Concerns
USAID’s environmental procedures, codified in Title 22 of the Code of Federal Regulations,
Part 216, “Environmental Procedures,” require that designers consider the impact of USAID’s
activities on the environment and adopt appropriate environmental safeguards for all activities.
Also, ADS Chapter 204 requires missions to conduct ongoing monitoring and evaluation of
environmental mitigation measures designed for the activities. For the two settlement sites,
USAID/Haiti completed environmental assessments that identified potential environmental
impacts. According to the terms of the contract, CEEPCO Contracting LLC, the contractor in
charge of construction management at Caracol-EKAM, was responsible for providing
USAID/Haiti with an environmental mitigation plan and report (EMPR) and seeing that the
mitigation measures were implemented and monitored.

CEEPCO reported on the effectiveness of environmental mitigation in its monthly progress
reports and EMPR to USAID. CEEPCO consistently rated certain environmental mitigation
measures low or very low in terms of effectiveness, but the construction contractor THOR’s
efforts to address the environmental problems resulted in only temporary improvements. For
example, CEEPCO noted in the March 2013, April 2013, and subsequent reports that
hazardous wastes are “not being properly stored and are the cause of soil and possibly water
contamination.” In the January 2013 report, CEEPCO reported that “notice of nonperformance
was to be given to guilty contractors.” However, actions taken by the mission and THOR, the
contractor, were insufficient, as evidenced by the continuing concerns raised in the monitoring
reports.

CEEPCO also made the following observations in the EMPR:

1. Cut materials from the site excavation area were disposed of in piles and needed to be
   leveled to land owners’ specifications.

2. Drip pans were not installed at the dispensing area for petroleum products.

3. Potential pollutants were not adequately stored.

4. Used oils and lubricants were not recycled.

5. A drainage system was not yet developed.

6. Plans for monitoring water quality did not exist during construction.

The mission environmental officer conducted regular visits to the Caracol-EKAM and DLA 1.5
settlements and documented his assessments in trip reports. In March 2013, during a visit to
Caracol-EKAM, the officer noted, “There has been considerable progress made at this site
during the past 6 months in both construction and environmental compliance practices.”
However, in July 2013 he reported that site conditions had deteriorated considerably since his
March site visit. He noted excessive solid waste (debris and garbage) onsite and said that solid
waste management had regressed rapidly in 3 months. He also noted that the May 2013 EMPR



                                                                                              8
indicated low levels of effectiveness for many of the environmental mitigation measures. His
report described the lack of environmental compliance as serious and urged the contracting
officer and contracting officer’s representative to address the problem quickly and firmly.

CEEPCO’s assessment of mitigation measures matched the mission environmental officer’s but
differed from THOR’s. Several measures that CEEPCO evaluated as low were reported by
THOR as “very effective.” These inconsistencies made it unclear whether mitigation was
effective.

Despite attempts to enforce the contractor’s compliance and improve mitigation, problems
persisted. CEEPCO issued citations to the contractor. Mission staff discussed the mitigation
efforts and problem areas with the contractors during regular meetings but did not do detailed
follow-up on problems reported in the EMPRs. According to mission officials, during the time of
deteriorating site conditions in 2013, THOR was dealing with other pressing issues resulting
from site shutdowns and protests. Still, the mission was making efforts to correct the
environmental situation. Both construction contractors had begun their final cleanup in
preparation for beneficiary move-in starting in September 2013.

Addressing environmental concerns promptly ensures that USAID projects are not detrimental
to beneficiaries’ quality of life. Hazardous waste and other materials that can contaminate the
soil and water should be eliminated for health and safety reasons. Accordingly, we make the
following recommendation.

   Recommendation 6. We recommend that USAID/Haiti address the inconsistencies in
   environmental reporting between its contractors and implement a plan for more vigorous
   enforcement of environmental mitigation at the construction sites.

Mission Did Not Evaluate
Contractors’ Performance
The Federal Acquisition Regulation (FAR 42.1502) requires agencies to evaluate and report on
contractor performance for each contract exceeding the simplified acquisition threshold, which is
currently $150,000. USAID policy guidance also requires contracting officers and contracting
officer’s representatives to evaluate contractor performance at least annually and, on contract
completion, provide information for future source selection and other acquisition decisions.

USAID/Haiti had not completed annual contractor performance evaluations for any of the six
contracts awarded to four contractors doing new settlement construction. The evaluations were
due when the contracts reached their 1-year mark, between June 2012 and April 2013.

USAID/Haiti officials had not completed the evaluations because the mission was not following
the FAR requirement, and the contracting office did not follow up to advise the technical office of
their responsibilities regarding the requirement until new contracting office staff arrived in May
2013. Furthermore, the contracting officer’s representatives said they were unable to access the
Web-based Contractor Performance Assessment Reporting System (CPARS) to complete the
evaluation requirement. The staff has since sought assistance from both the contracting office
and CPARS technical support in obtaining access to the system to complete the evaluations.

Regular, comprehensive, and conscientious performance evaluations can help the mission with
source selection for upcoming awards. Evaluations can also serve as a significant incentive to



                                                                                                 9
contractors to provide USAID with superior products and services. To underscore the need for
evaluating contractor performance, we make the following recommendation.

    Recommendation 7. We recommend that USAID/Haiti complete the required contractor
    performance evaluations for all new settlement construction contracts in accordance with
    the Federal Acquisition Regulation and USAID’s Acquisition Regulation.

Mission Did Not Approve
Contractors’ Branding Plans
To make the public aware that development assistance comes from the American people,
ADS 320.3.2 requires contractors to submit for approval a plan to implement USAID’s branding
strategy. This branding plan must address how to publicize activities. Furthermore, “Program,
project, or activity sites financed by USAID contracts, including visible infrastructure projects . . .
must prominently display the USAID identity.”

Despite these requirements, 2 years into implementation, USAID/Haiti did not have an approved
branding plan for four implementers:

•   CEMEX submitted a draft branding plan during the first year, but the mission did not
    approve it.

•   Personnel for the engineering contractor PHS were told by mission officials that branding
    plans were not required, despite the clear requirements in the contract.

•   THOR submitted a proposed branding and marking plan, but mission officials believed that
    implementing it was too costly and asked THOR not to implement it. The mission had not
    asked THOR to revise the plan.

•   CEEPCO also submitted a draft plan during the first year, but the mission did not approve it.
    The plan remained unapproved as of July 2013.

Although there were no approved branding plans, the mission and contractors made efforts to
recognize USAID’s contributions to the activities through signage. At the Caracol–EKAM and
DLA 1.5 sites, the contractor had properly installed large signs to announce the work of USAID.
However, the DLA 1.5 site had two small signs, one with a large hole in it, and neither sign was
clearly readable (as shown on the following page). CEMEX’s chief of party said USAID had
asked the company to minimize the signage at the DLA 1.5 site to keep a low profile. The idea
was to avoid unrest like the demonstrations and protests at the Caracol-EKAM site. However,
this approach to branding was not formally documented in an approved branding plan.




                                                                                                    10
 The sign at Caracol-EKAM (left) appropriately recognizes USAID/Haiti, whereas the one at DLA 1.5 (right)
        is too small and damaged to read. (Photos by RIG/San Salvador, July 1 and June 27, 2013)

The projects did not have approved branding plans because mission officials did not act
promptly to consider the contractors’ submissions, document their decisions, and provide written
notification to the contractors. Without an approved branding plan and without legible signs at
the construction sites, USAID and the American people might not receive appropriate
recognition for their assistance. Mission officials agreed that branding plans are needed and
have taken steps to address this issue. To build on those steps, we make the following
recommendation.

   Recommendation 8. We recommend that USAID/Haiti document its actions with regard
   to branding plans in accordance with USAID regulations and obtain appropriate waivers
   if necessary.




                                                                                                            11
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, the mission agreed with six of the eight recommendations,
disagreeing with Recommendation 4 and not stating its position on Recommendation 5. Having
reviewed management comments, we acknowledge the mission’s management decisions on all
the recommendations. However, we disagree with the mission’s management decisions on
Recommendations 4 and 5 because the mission hasn’t completed its review of the documentation
for the projects to determine that all deficiencies have been corrected. Our evaluation of
management comments follows.

Recommendation 1. The mission agreed to determine whether its housing targets were
unrealistic. It determined they were, because of higher costs, design changes, and site
conditions, and was revising the housing targets in its fiscal year 2014 performance
management plan. The mission plans to update the targets every 2 years to reflect changes in
scope, site conditions, availability of funds, and funding from other donors. The mission
estimated it would finish updating the targets by June 30, 2014. The mission reported
completing construction of 906 houses and was preparing 426 sites for houses to be
constructed with funding from other donors. The site preparation for the 426 sites should be
completed in the fall of 2014. Given the mission’s planned actions, we acknowledge its
management decision on this recommendation.

Recommendation 2. USAID/Haiti agreed to require its construction contractors in all future
construction contracts over $1 million to include detailed instructions in the quality control plans.
The mission was developing a mission order on construction projects that will include the
requirements for the quality control plans. The mission expected to finalize the mission order by
September 30, 2014. We acknowledge the mission’s management decision on this
recommendation.

Recommendation 3. The mission agreed to require its construction contractors to maintain
documentation of quality control tests and their results in a central location accessible to mission
staff. This requirement will be included in the engineering and construction mission order the
mission was developing and expected to complete by September 30, 2014. Accordingly, we
acknowledge the mission’s management decision on this recommendation.

Recommendation 4. The mission disagreed with the recommendation requiring contractors to
document and resolve all deficiencies and to use punch lists. It did so because it believes these
requirements are included in the contracts and have been met. The mission asserted that the
punch lists were developed at the appropriate time at the point of substantial completion which
occurred for the two housing settlements on October 31 and November 30, 2013.

We do not agree with the mission’s management decision. Although the contracts have ended,
the mission has not completed its review of the punch lists to determine that the deficiencies
identified have been resolved.

Recommendation 5. The mission did not agree or disagree with the recommendation to correct
the problems noted with the finishing steps on the completed houses. The comments stated that



                                                                                                  12
the projects were completed and that the deficiencies noted in the finish work have been
completed. However, we disagree with the mission’s management decision—that nothing
further is required—because the mission has not completed its review of documentation to
determine that deficiencies have been corrected.

Recommendation 6. The mission agreed to address the inconsistencies between contractors
in environmental reporting and implement a plan for more vigorous enforcement of
environmental mitigation at the construction sites. Mission officials planned to address the
inconsistencies in reporting by April 30, 2014. Furthermore, the mission planned to improve its
monitoring of environmental mitigation by (1) requiring monthly updates highlighting issues
requiring action, (2) instituting quarterly site visits by the COR and mission environmental staff,
and (3) implementing a procedure to resolve any discrepancies noted in environmental
monitoring, all by July 31, 2014. The mission also planned to require its CORS to attend training
on environmental procedures. Given these planned actions, we acknowledge the mission’s
management decision on this recommendation.

Recommendation 7. The mission agreed to complete the required contractor performance
evaluations for all new settlement construction contracts in accordance with acquisition
regulations. Mission officials were working with the mission acquisition and assistance offices to
resolve the access issues with CPARS. The target completion date for this action is April 30,
2014. We acknowledge the mission’s management decision on this recommendation.

Recommendation 8. The mission agreed to document its actions regarding branding plans in
accordance with USAID regulations and obtain waivers, if necessary. The mission stated that,
as of January 6, 2014, CORs had documented implementers’ compliance with USAID’s
branding and marking requirements at both settlements. The audit team reviewed the mission’s
memos to the file documenting its actions regarding the contractors branding plan. Accordingly,
we acknowledge the mission’s final action on this recommendation.




                                                                                                13
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether USAID/Haiti was achieving its main goals for
new settlements construction activities: designing and constructing houses in Haiti.

As of July 2013, USAID/Haiti had awarded seven contracts and agreements valued at
$51 million for the new settlements construction activities. As of July 5, 2013, USAID/Haiti had
obligated $50 million and disbursed $42 million for activities. The disbursed amount represents
the amount tested during this performance audit.

The audit covered activities from July 2011 through July 2013. We conducted audit fieldwork in
Haiti from June 25 to August 22, 2013, at USAID/Haiti, settlement construction sites in Cabaret
and Caracol and at contractors’ offices in Petion-Ville and Cap Haitien. We also met with local
officials and community representatives in Cabaret and Caracol.

In planning and performing the audit, we assessed the following significant internal controls the
mission used to monitor program activities: quality control plans; initial environmental
examination and environmental compliance plans; daily and monthly progress reports; and
reports of meetings and other contacts between mission officials and its contractors: CEMEX,
THOR, PHS, and CEEPCO. We also reviewed and tested the quality control plans used by the
contractors. We reviewed the mission’s fiscal year 2012 assessment of internal controls
required by the Federal Managers’ Financial Integrity Act of 1982 to verify whether it cited any
relevant weaknesses, and reviewed prior audit reports to identify any internal control
weaknesses significant to the audit objective.

Methodology
To answer the audit objective, we interviewed officials from USAID/Haiti, PHS, THOR, CEMEX ,
CEEPCO, and construction subcontractors for THOR and CEMEX. We reviewed documentation
including the awards, technical proposals and evaluations, contractors’ quality control plans, daily
and monthly progress reports, environmental assessments, financial data, and documentation of
materials testing.

We verified the results of quality control tests by visiting the construction sites and reviewing
supporting documentation at the contractors’ offices. We selected a judgmental sample for
supporting documentation of CEEPCO, CEMEX, PHS, and THOR to allow testing of all major
quality control elements within the time frames allowed by the audit. Since the testing was
based on a judgmental rather than a statistical sample, the results and conclusions related to
documentation analysis are limited to the items tested and cannot be projected to the entire
audit universe.



                                                                                                 14
                                                                                       Appendix II



MANAGEMENT COMMENTS



TO:            Jon Chasson, Regional Inspector General

FROM:          John Groarke, Mission Director/s/

DATE:          March 27, 2014

SUBJECT:       Mission Response to the Draft Report of USAID/Haiti’s Audit of New
               Settlement Construction Activities (Report No. 1-521-14-00X-P)

This memorandum represents USAID/Haiti’s actions taken to address and reach management
decisions in response to the recommendations reported in the draft OIG Report No. 1-521-14-
00X-P for USAID/Haiti’s New Settlement Construction Activities. The mission provides below
its responses to the recommendations.

Recommendation 1:We Recommend that USAID/Haiti determine whether the current targets
are realistic or need to be adjusted and document revised estimates of completion dates for the
remaining houses and sites.
Mission Response:
USAID/Haiti concurs with OIG Recommendation 1. Dramatically higher actual costs—due in
large part to bigger unit size, geotechnical and hydrologic conditions at two sites, and overall
improvements to water and sanitation infrastructure—rendered the original estimated housing
targets obsolete and therefore unrealistic. Accordingly, the Mission is adjusting and revising the
estimated housing targets as part of an ongoing strategy and programmatic reviews to be
reflected in the FY 2014 update of the Performance Management Plan. As needed, the Mission
will continue to assess and adjust targets and completion dates on a semi-annual basis to reflect
changes in scope and site conditions, availability of appropriated funds, and funding from
resource partners (e.g. other donors).

All 906 houses in the first two new settlement projects in the Port-au-Prince and Northern
development corridors, were completed on October 31, 2013 and November 30, 2013,
respectively. Site preparation at the Terrier Rouge and Ouanaminthe sites in the Northern
corridor funded by USAID, where 426 housing units will be constructed by the Government of
Haiti, is currently underway and is slated to be completed in the fall of 2014.




                                                                                                  15
                                                                                          Appendix II


Plan of Action and Timeline: The Mission carries out portfolio reviews on a semi-annual basis.
Housing targets will be reviewed and updated as part of these and similar reviews. The updated
targets will be documented in the Mission’s FY 2014 update of the Performance Management
Plan slated to be completed by June 30, 2014.

Recommendation 2: “We recommend that USAID/Haiti require contractors to include detailed
instructions in their quality control plans to make sure that construction projects meet the quality
standards set forth in the contracts.”
Mission Response:
The Mission concurs with OIG Recommendation 2. USAID does require contractors to provide
a Quality Control/Quality Assurance (QC/QA) Plan in all construction contracts greater than $1
million. A new Mission Order will specify that QC/QA Plans must detail the “Who, How,
Where, and When” of their approach to QC/QA and also specify how the QC/QA documentation
will be managed.

Plan of Action and Timeline
The Office of Infrastructure, Engineering, and Energy is developing an Engineering and
Construction Mission Order to address Quality Control/Quality Assurance Plans, as well as for
planning, design, procurement, implementation, and oversight, including project closeout for
construction projects. The USAID/Haiti mission targets finalization of this Mission Order by
September 30, 2014.

Recommendation 3: “We recommend that USAID/Haiti require its contractors to document all
test results and make them available on request.”

Mission Response:
USAID/Haiti concurs with OIG Recommendation 3. A key section in the QC/QA Plans
described above in the Mission’s Plan of Action for IG Recommendation 2 addresses the
management of the QC/QA documentation. In all future construction projects greater than $1
million, contractors will be required through solicitations and in their contract to maintain
QC/QA documentation in a central location immediately accessible to USAID and its designated
agents. At the time of contract completion, QC/QA documentation, including all findings and
approved corrective measures, will be turned over to USAID along with the as-built drawings.

Although the construction contractors’ QC/QA documentation management needed
improvement, the Mission would like to clarify and underscore that they carried out all the
QC/QA testing required in their contracts. All testing documentation is available at the
contractors’ offices for further review as required. The audit report noted that the contractor was
not documenting concrete slump tests, which was not the case. The housing contractors
undertook a pass/fail testing methodology and documented only the failed tests. The construction
management and supervision contractor for the northern construction works also kept complete
records at their office in Cap Haitian. If any of the concrete delivered on site failed the slump test
(i.e. did not conform to the plant order ticket form), the concrete truck was rejected. This was,
however, extremely rare. For example, slump tests failed only seven times out of a total of 616
tests (1%) at one site, and the contractor did not record all 616 slump tests — only the failed



                                                                                                   16
                                                                                       Appendix II


tests. In future solicitations and contracts, the Mission will specify all QC/QA requirements,
including the stipulation that the contractor record all materials tests.

Plan of Action and Timeline
The USAID/Haiti Office of Infrastructure, Engineering and Energy is developing an Engineering
and Construction Mission Order to provide more detailed requirements for contractor QC/QA
Plans as well as for planning, design, procurement, implementation, and oversight, including
project closeout, for construction projects. The USAID/Haiti mission is slated to finalize this
Mission Order by September 30, 2014.

Recommendation 4: “We recommend that USAID/Haiti require its contractors to document
and resolve identified deficiencies, and implement punch lists before asking USAID to accept
completed houses.

Mission Response: The Mission disagrees with OIG Recommendation 4 because the
development of punch lists and identifying and resolving deficiencies have always been, and
continue to be, a key contractual requirement for all construction projects sponsored by
USAID/Haiti. Punch list development for the Northern Corridor project was undertaken June
2013 through October 2013 and for the project in the Port-au-Prince Corridor, September 2013
through November 2013. All deficiencies identified during the punch list process were corrected
as required by the process.

Punch lists are traditionally prepared once the contractor has confirmed that s/he has reached
substantial completion. Under the new settlements program, USAID defined substantial
completion as “the stage at which work is sufficiently complete, in accordance with the Contract
Documents, to allow the Owner to occupy or utilize the Work for its intended purpose.”

The audit report field visits were carried out in July 2013. At that time, 50% of the houses in the
North of Haiti had reached the stage of substantial completion and had punch lists prepared and
deficiencies rectified. After July 2013, the remaining housing construction in the North and
West reached the stage of substantial completion and the construction management contractors
executed the required punch lists for each project site. In accordance with this process, once all
identified deficiencies on the punch list were resolved by the prime construction contractors, the
punch lists were signed by the construction manager indicating that the house had passed final
inspection. By November 30, 2013, all houses at both sites had completed final inspection.

Plan of Action and Timeline
Punch list documentation is already included as part of the Project Closeout Documentation, due
90 days after the project activity completion date. The Office of Infrastructure, Engineering and
Energy will submit the Project Closeout Documentation to demonstrate compliance with punch
list development, and resolution of deficiencies.

Recommendation 5: “We recommend that USAID/Haiti correct the deficiencies noted with
finishing the completed houses”

Mission Response:



                                                                                                 17
                                                                                        Appendix II


As noted above in the response to IG Recommendation 4, and as per the conditions of the
housing contracts, all deficiencies identified during the punch list process have been corrected as
required of the scheduled process. As of this date, the houses and utilities all conform to the
contract specifications and relevant standards. In addition, the construction product has a one-
year warranty period within which the construction contractor is required to rectify any defects
that may surface as a result of their work.

Plan of Action and Timeline
USAID/Haiti has completed this action.

Recommendation 6: We recommend that USAID/Haiti reconcile the inconsistencies in
environmental reporting between its contractors and implement a plan for more vigorous
enforcement of environmental mitigations at the construction sites.

Mission Response:
USAID/Haiti concurs with OIG Recommendation 6. The Contracting Officer’s Representative
will meet with the Mission Environmental Officer and both private contractors to come to
closure on any inconsistencies in the environmental reporting. This meeting is scheduled to take
place before April 30, 2014.

Moving forward, the Mission will continue to focus on improving contractor performance
through monitoring and reporting, and training:

   1. Monitoring and Reporting.

          i.   Mission contracts with Construction Management and Supervision Contractors
               will require them to produce monthly environmental updates that highlight issues
               in the EMPR requiring action by the construction contractor, inclusive of photos
               and other relevant visual aids.

         ii.   As part of their field monitoring requirements, the Contracting Officer’s
               Representative (COR) and Mission Environmental Officer (or designee) will
               conduct joint quarterly visits to determine environmental compliance.

        iii.   When inconsistencies are noted, the COR will convene all concerned parties
               (including the Mission Environmental Officer) within one week in order to rectify
               the problem; minutes will be taken to capture the discussion and agreed upon
               remedies.

   2. Training.
         a. CORs will be required to take the basic USAID Environmental Procedures (Reg.
             216) training course as soon as possible after being certified, and to participate in
             a refresher course every 3 years. CORs not trained in Reg. 216 and who are
             assigned a project that pose high environmental impacts will be required to take


                                                                                                 18
                                                                                       Appendix II


               the course as soon as possible and be paired with an alternate that has had this
               training. In February 2014, USAID/Haiti organized and presented two, 1-week
               training courses on Reg. 216 in which twenty (20) Mission CORs were trained.

Plan of Action and Timeline
The Mission will conduct Reg. 216 Training on an annual basis. CORs will be required to take
the basic USAID Environmental Procedures (Reg. 216) training course as soon as possible after
being designated as COR, if not before, and to participate in a refresher course every 3 years. For
FY2014, two trainings have already been held and 20 CORs trained.

Recommendation 7: We recommend that USAID/Haiti complete the required contractor
performance evaluations for all new settlement construction contracts in accordance with the
Federal Acquisition Regulation and USAID’s Acquisition Regulation

Mission Response: USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
The relevant CORs are working with the Contracting Officer and will complete the CPARs by
no later than April 30, 2014.

Recommendation 8: We recommend that USAID/Haiti document its actions with regard to
branding plans in accordance with USAID regulations and obtain appropriate waivers, if
necessary.

Mission Response: The Mission concurs with IG Recommendation 8. As of January 6, 2014
CORs have documented implementers’ compliance of USAID’s Marking and Communications
requirements for both projects. Documentation of compliance is available in the project files.

Plan of Action and Timeline
Action completed.




                                                                                                  19
                                                                                   Appendix III


Appendix III – Status of New Settlement Awards as of July 2013

  Contractor/      Description of Work to be         Award          Period of        Status
 Implementing             Performed                 Amount         Agreement
    Partner                                        ($ million)
Habitat for      Technical assistance to local         4.8         June 2011 to    Completed
Humanity         authorities and establishment                      April 2013
International    of community management
                 committees
CEEPCO           Surveying, engineering design,       0.6          June 2011 to    Completed
Contracting      and environmental assessment                      August 2011
LLC              for the Caracol-EKAM
                 settlement
CEEPCO           Site development and                 12.7       September 2011    Extended
Contracting      construction management for                     to August 2013
LLC              Caracol-EKAM settlement
PHS Group Inc.   Engineering services for 6           3.9        December 2011     Extended
                 planned settlements in Croix                    to August 2013
                 Des Bouquets and Cabaret
                 municipalities (2,720 housing
                 sites)
PHS Group Inc.   Design, engineering, and             4.2        December 2011     Extended
                 construction management for 7                   to March 2014
                 planned settlements in the
                 Cap Haitien development
                 corridor (estimated 3,500 plots
                 at seven sites)
THOR             Construction of 750 houses at        18.0       April 2012 to     Extended
Construction     Caracol-EKAM settlement                         September 2013
Inc.

CEMEX Haiti      Construction of 156 houses at        6.6          April 2012 to   Extended
                 DLA 1.5 settlement                                August 2013
                 Total                                50.8




                                                                                              20
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
